Credit Card Pricing Agreement
FEATURING Visa® Choice Reward
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases

3.90% introductory APR for 6 months.
After that, your APR will be 10.99% - 18.00%, based on your creditworthiness
and will vary with the market based on the Prime Rate.

3.90% introductory APR for 9 months.
After that, your APR will be 10.99% - 18.00%, based on your creditworthiness
Balance Transfer APR:
APR for Cash Advances &
Balance Transfers

and will vary with the market based on the Prime Rate.

3.90% introductory APR for 6 months.
After that, your APR will be 10.99% - 18.00%, based on your creditworthiness
Cash Advance APR:

and will vary with the market based on the Prime Rate.

18.00% - This APR may be applied to your account if:
Penalty APR and When It
Applies




Your minimum monthly payment is more than 60 days late
You are in default of any other terms of the Agreement

How long will the penalty APR apply?
If your APR is increased for any of these reasons, the penalty APR will apply until you
make six consecutive minimum payments when due.

Your due date is at least 25 days after the close of each billing cycle. We will not charge
How to Avoid Paying Interest
any interest on the portion of the purchases balance that you pay by the due date each
on Purchases
month.
Minimum Finance Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Federal Reserve Board

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Federal Reserve Board at http://www.consumerfinance.gov/learnmore

FEES
Annual Fee

None

Transaction Fees
Cash Advance
Foreign Transaction

3% of the cash advance transaction (minimum $10.00)
Up to 1% of the US dollar amount of the foreign transaction

Penalty Fees
Late Payment Fee
Returned Item Charge

$25.00
$25.00 or the amount of the returned item, whichever is less

Other Fees
Pay by Phone

Up to $10.00

THINGS YOU SHOULD KNOW ABOUT THIS REWARDS PROGRAM
How We Will Calculate Your Balance: We use a method called “Average Daily Balance” (including new
purchases). W e reserve the right to amend the Visa® Credit Card Agreement as permitted by law. The
above rates and fees are current as of 11/09/2015.
REV. 5/16 pg. 1

Loss of Introductory APR: We may end your introductory APR and apply the penalty APR if you make
a payment more than 60 days late.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in your account agreement.
These Account Disclosures for the Choice Rewards Credit Card are part of and integrated with your Credit Card
Agreement and Disclosure with OneAZ Credit Union.
How are Reward Points Calculated?
Points are calculated on each individual purchase transaction and rounded [up or down] to the nearest
whole dollar. The individual results are then added together and we subtract any returns, credits or
adjustments to determine the net points earned. Points are calculated and credited daily.
How Do I Redeem My Rewards?
There are five ways you can redeem your points:
1) Travel Redemption
2) Merchandise Redemption
3) Merchant Gift Card Redemption
4) Cash Redemption
5) Donation Redemption
There is no fee to participate in the ONEAZ rewards program and you are automatically enrolled when opening an
OneAZ Choice Rewards Credit Card.
All point redemptions are final. Redemptions are subject to point availability and other conditions contained in the Choice
Rewards Credit Card Terms and Conditions disclosure.
Disputes:
1) All point disputes must be made in writing and sent
to: OneAZ Credit Union
Attn: Card ervices
2355 W. Pinnacle Peak Road
Phoenix, AZ 85027
2) You must contact us within 60 days after the error appeared on your statement. You must notify us in writing.
3) All decisions by OneAZregarding point disputes are final.
When we receive your letter we must do two things:
1) Within 30 days of receiving your letter, we must tell you we received your letter. We will also tell you if we
have already corrected the error.
2) Within 90 days of receiving your letter, we must correct the error or explain to you why we believe the statement
is correct.

REV. 5/16 pg. 2

